November 20, 2020
MOLLEE MCWHORTER V. USA
Supreme Court, U.S.
FILED '

PETITION FOR RE-HEARING FOR WRIT OF CERTIORARI
The Petition must briefly and distinctly state its grounds:

OCT 3 0 2020
OFFICE OF THE CLERK

I, Nor Anyone, should be subject to any harsh penalty to include a Guilty sentence
decision on a Federal Cannabis Charge Case, which will forever tarnish my record over a PlantBased Medicine. As an unvaccinated Herbalist, as a religion and way of healing, the Cannabis
Plant Medicine should be seen as Medicine and not as a Narcotic.
With proven research, USA Medical Cannabis, as well as Recreational Cannabis States,
are helping to treat Seizures, Parkinson's Disease including Dyskinesia shakes, Cancer, Anxiety,
Inflammation, Arthritis, and many more diseases and ailments. Even though my state of
Virginia is said to be leaning towards Legalizing Cannabis through our Governor soon, it will
still remain Federally Illegal until The Supreme Court of the United States hears a case like mine
where someone, Myself, uses a 1:1 Ratio of Cannabis and Hemp Plants, along with
pharmaceuticals, to survive. Nobody would ask to surrender my pharmaceuticals over to them,
so why is my Plant Medicine being surrendered over? This charge and the charges of millions of
Americans could have been prevented had the Government or The Supreme Court already done,
many years ago, what was in the best interest of We The People — Legalizing Medical Cannabis.
The Cannabis Herb needs to be fully Re-Classified, as it is Not a Narcotic, Rather, Highly
Medicinal based on USA research already completed and known, as well as research done in
countries like Israel with leading Cannabis Industry knowledge.
My Federal Cannabis Case was held in Conference during the passing of Ruth Bader
Ginsburg, which is also a considerable reason for Re-Hearing with newly appointed Supreme
Court Justice Amy Coney Barrett.

Thank You and Sincerely,

eika
Mollee M. McWhorter Kuhn

40(414/-L
RECEIVED
NOV 2 7 2020
rIFFICE OF THE CLERK
----SAE COURT, U.S.

November 20, 2020
MOLLEE M. MCWHORTER V. USA
No. 20-5193
CERTIFICATION ACCOMPANIMENT
Certificate stating the grounds are limited to intervening circumstances of substantial or
controlling effect or to other substantial grounds not previously presented:
The grounds in my petition for re-hearing are limited to intervening circumstances
because my Federal Cannabis Case was heard in Conference during the passing of Ruth Bader
Ginsburg and then, in turn, without the Nine (9) Supreme Court Justices. Morally and Ethically,
it should be re-heard with Amy Coney Barrett also.
The intervening circumstance of substantial and controlling effect from Cannabis plant
being listed and Classified as a Class 1, Schedule 1 Narcotic makes it impossible for the USA to
benefit economically, from Cannabis medicine sales at the Federal Level, when over half of the
United States of America's Fifty (50) States are Medically or Recreationally Legal and
Prospering. Federal Cannabis Legalization would boom our Economy and keep many people out
of Prisons and Jails.
A Guilty sentence on my Federal Cannabis Charge Case brings with it a substantial
ground not previously presented and a limitation to intervening circumstances of substantial or
controlling effect because it would make hiring businesses with background checks refuse to hire
me. I would have a lifetime of financial hard-times, trying to find work outside of being a selfemployed musician over a Plant/Herb, Cannabis, seen as Medicinal by over half of the USA
States and many countries worldwide. Only The Supreme Court of the United States can
overturn My Federal Cannabis Charge and see me as Not Guilty. In doing so, to Federally
Legalize Cannabis would make Plant-Based Medicine, Cannabis, much more accessible for
Medical Cannabis Patients.

Thank You and Sincerely,

Mollee M. McWhorter Kuhn

SUPREME COURT OF THE UNITED STATES
OFFICE OF THE CLERK
WASHINGTON, DC 20543-0001
November 5, 2020

Mollee McWhorter
PO Box 764
Luray, VA 22835
RE: McWhorter v. United States
No: 20-5193
Dear Ms. McWhorter:
The petition for rehearing in the above-entitled case was postmarked
October 30, 2020 and received November 4, 2020 and is herewith returned
for failure to comply with Rule 44 of the Rules of this Court. The petition
must briefly and distinctly state its grounds and must be accompanied by a
certificate stating that the grounds are limited to intervening circumstances
of substantial or controlling effect or to other substantial grounds not
previously presented.
Please correct and resubmit as soon as possible. Unless the petition is
submitted to this Office in corrected form within 15 days of the date of this
letter, the petition will not be filed. Rule 44.6.

Sincerely,
Scott S. Harris, Clerk
By:
Redmond K. Barnes
(202) 479-3022

Enclosures

